IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
CASE NO.__________________
BERNARD MOORE,
Petitioner,
vs.
THE UNITED STATES OF AMERICA,
Respondent
____________________________/
MOTION TO PROCEED ON PETITION FOR WRIT OF CERTIORARI
IN FORMA PAUPERIS
Petitioner Bernard Moore, through his undersigned CJA counsel, moves the
Court pursuant to Rule 39 of the Rules of the United States Supreme Court, to grant
him leave to proceed In Forma Pauperis for this Petition for Writ of Certiorari. As
good grounds in support of this motion Petitioner states:
Petitioner is presently in the custody of the United States Bureau of Prisons,
serving a sentence of 240 months that was imposed following a jury trial, guilty
verdict, and conviction on charges of drug trafficking and firearm possession in the
Southern District of Florida.

1

Bernard Moore was found to be indigent by the district court in 2017.
Undersigned counsel was appointed in 2017 by the district court, to represent Mr.
Moore for purposes of his direct-appeal proceedings to the United States Court of
Appeals, Eleventh Circuit, from the judgment of the Southern District of Florida .
Mr. Moore has been continuously incarcerated since his arrest in 2016 for this case.
His financial circumstances have not improved during the past four years that he
has been incarcerated for this matter.
The Petition that is filed on behalf of Bernard Moore presents meritorious
questions for this Court’s review, including a matter of clear conflict among the
circuits, and the need for the Court to exercise its supervisory power over a decision
of the Eleventh Circuit that affirms fundamental constitutional violations by the
district court.
In Rehaif v. United States, this Court held that 18 U.S.C. §§ 922(g) and
924(a)(2) require the government to prove that “the defendant knew he possessed
a firearm and also that he knew he had the relevant status when he possessed it.”
139 S.Ct. 2191, 2194 (2019). One “relevant status” is that the defendant have a
prior conviction for “a crime punishable by imprisonment for a term exceeding one
year.” 18 U.S.C. § 922(g)(1).
2

There is a direct split in the Circuits in cases that were tried to a jury and were
pending on direct appeal when this Court decided Rehaif. The first two questions
presented by this petition are: First, whether in determining if the defendant’s
substantial rights were affected by the failure of the indictment to charge, and the
government to prove to the jury, that the defendant knew his relevant status, the
courts of appeals may consider the “entire” record, including a presentence report
containing facts about the defendant’s prior convictions that were not admitted or
offered to be admitted at trial?
And Second, whether, even if the courts of appeals may consider the entire
record, a court of appeals errs by considering only certain non-trial evidence, and
not considering evidence on the record tending to show that the defendant lacks
the requisite knowledge of his status, all of which violated due process guaranteed
by the Fifth Amendment ?
Questions Three and Four
Whether in affirming Bernard Moore’s conviction and sentence, the United
States Court of Appeals for the Eleventh Circuit has so far departed from the accep-

3

ted and usual course of judicial proceedings, and sanctions such a departure by the
district court, as to call for the exercise of this Court’s supervisory powers in that
it violates every notion of reasonableness, fairness, due process, and common
sense, third, to affirm where the Eleventh Circuit violated Moore’s right to due
process under the Fifth Amendment by failing to adhere to its own precedent, and
precedent of this Court concerning his entitlement to relief while his case was
pending on direct review to a change of law? And fourth, to affirm where there
was a warrantless search in violation of the Fourth Amendment?
Accordingly, for the foregoing reasons, Petitioner Bernard Moore
respectfully prays that this Honorable Court will grant this motion and will allow
him to proceed before this Court on Petition for Writ of Certiorari In Forma Pauperis
through his CJA-appointed counsel.
Respectfully submitted,

/s/ Sheryl J. Lowenthal

Dated: December 4, 2020

______________________
Sheryl J. Lowenthal, CJA Counsel for Petitioner
9130 S Dadeland Boulevard Suite 1511
Miami, Florida 33156-7851
Ph: 305-670-3360 Fax: 305-670-1314
Florida Bar No. 163475
Email: sjlowenthal@appeals.net
4

North Florida Office: 221 East Government Street Pensacola, Florida 32502 Phone: 850-912-6710

